                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                        March 11, 2010


MEMORANDUM TO:            R. William Borchardt
                          Executive Director for Operations

                          J. E. Dyer
                          Chief Financial Officer



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  MEMORANDUM REPORT: REVIEW OF NRC’S
                          IMPLEMENTATION OF THE FEDERAL MANAGERS’
                          FINANCIAL INTEGRITY ACT FOR FISCAL YEAR 2009
                          (OIG-10-A-10)


This report reflects the Office of the Inspector General’s assessment of the Nuclear
Regulatory Commission’s (NRC) FY 2009 compliance with the Federal Managers’ Financial
Integrity Act (FMFIA) of 1982. We found that NRC complied with the FMFIA requirements.

BACKGROUND

The FMFIA, enacted on September 8, 1982, requires ongoing evaluations and reports of the
adequacy of internal controls and accounting systems of each executive agency. Further,
the FMFIA requires that, each year, the head of each executive agency report to the
President and the Congress on their agency’s compliance with the FMFIA requirements.

Effective since FY 2006, Office of Management and Budget (OMB) Circular No. A-123,
Management’s Responsibility for Internal Control, revised December 2004, requires
agencies to include the annual FMFIA report as part of the Performance and Accountability
Report under the heading “Management Assurances.” Additionally, this circular requires
management to provide a separate assurance statement relating to the effectiveness of
internal control over financial reporting.
RESULTS

In the FY 2009 Performance and Accountability Report, the Chairman provided reasonable
assurance that internal control over operations, compliance with laws and regulations, and
internal control over financial reporting were operating effectively and no material
weaknesses were found. The Inspector General concurs with the assurances made and
found that NRC complied with the FMFIA requirements.

AGENCY COMMENTS

A draft report was provided to the Executive Director for Operations and the Chief Financial
Officer for comment. These offices had no comments on the report.

SCOPE/CONTRIBUTORS

We evaluated the internal controls related to NRC’s implementation of the FMFIA for
FY 2009, and conducted our work during the period October 2009 - March 2010, in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. This audit was conducted by Steven Zane,
Deputy Assistant Inspector General for Audits; Kathleen Stetson, Audit Manager;
Terri Cooper, Audit Manager; and Elaine Kolb, Senior Auditor.

If you have any questions, please contact me at 415-5915 or Steven Zane at 415-5912.

cc:   Chairman Jaczko
      Commissioner Klein
      Commissioner Svinicki
      N. Mamish, OEDO
      J. Andersen, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
